OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S
BUILDING EDUCATION
SUPPORT SYSTEMS FOR
TEACHERS PROJECT
AUDIT REPORT NO. 5-306-10-006-P
January 29, 2010




MANILA, PHILIPPINES

Office of Inspector General




January 29, 2010

MEMORANDUM

TO:       	          USAID/Afghanistan Mission Director, William M. Frej

FROM: 	              Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:	            Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers
                     Project (Audit Report No. 5-306-10-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft audit report and included the comments in their entirety
in appendix II.

The audit report contains four recommendations to assist the mission in improving various
aspects of the project. On the basis of information provided by the mission in response to the
draft report, we determined that a management decision has been reached on
recommendations 1, 2, 3, and 4. A determination of final action on the four recommendations
will be made by the Audit Performance and Compliance Division upon completion of the
planned corrective actions.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ............................................................................................................. 1 


Background ........................................................................................................................... 3 

.

Audit Objective ........................................................................................................................ 4 


Audit Findings ....................................................................................................................... 5 


Is USAID/Afghanistan’s Building Education Support Systems 

for Teachers (BESST) Project achieving its main goals? 


     New Memorandum of Agreement Is Needed .................................................................... 7 


     High-Value Subcontract Modifications Were 

     Not Approved by the Mission ............................................................................................ 8 


     USAID Branding and Marking Requirements 

     Are Not Being Followed .................................................................................................. 11 


Evaluation of Management Comments ............................................................................. 13 


Appendix I—Scope and Methodology............................................................................... 14 


Appendix II—Management Comments.............................................................................. 16 

SUMMARY OF RESULTS

The USAID/Afghanistan’s Building Education Support Systems for Teachers Project has
two main goals to help improve the quality of education in Afghanistan:

•	     To improve teaching by training Afghan teachers.

•	     To institutionalize structures and systems in the Afghan Ministry of Education that
       support high-quality teaching.

Under the project, a group of teachers already working for the Ministry of Education was
chosen as instructors to train approximately 54,000 teachers in 11 Afghan provinces.
The project also assisted the Ministry of Education with its 5-year strategic plan and
developed a training curriculum to train ministry officials in management skills. For the
period January 27, 2006, to January 26, 2011, the project is being implemented through
a $94 million, 5-year contract with Creative Associates International, Inc. As of
September 30, 2009, $56 million had been obligated and $48 million had been spent for
program activities. (See pages 4 and 5.)

Our audit concluded that the project is making progress but has not achieved its two
main goals. Creative Associates stated that they hope to complete all required project
efforts by the end of the contract. Our audit found that 50,600 of the target of 54,000
teachers in 11 Afghan provinces had received in-service training for teachers already
working for the Ministry of Education. Also, most of the 444 candidates that were part of
the project’s plan to develop capacity at the Ministry of Education had been recruited
and selected. Some tasks had not been completed, however, such as an accelerated
learning program for teachers and database training for human resources staff. (See
pages 5 and 6.)

Some areas needed improvement. For example, the August 2007 memorandum of
agreement between the mission, Creative Associates, and the Ministry of Education had
not been reviewed annually and had not been revised. Because of significant changes that
the mission had planned for the remaining period of the project, the memorandum of
agreement was outdated. (See page 7.)

In addition, high-value modifications to subcontracts awarded by Creative Associates
had not received the required approval of the mission’s contracting officer. The
subcontract modifications pertained to such significant issues as (1) the terms of
subcontractor performance, (2) changes in the duration of subcontracts, (3) significant
increases in subcontract funding, and (4) one subcontract termination. The mission
should have had a chance to review and approve these issues. In the case of the
terminated subcontract, the mission was not given information on how subcontractor
tasks would be completed. Moreover, the mission could be liable for contract
termination costs. (See page 8.)

Furthermore, Creative Associates and a subcontractor were not complying with USAID
branding and marking requirements for the project. When we visited the main office of
Creative Associates in Kabul and the regional office of a subcontractor in Balkh
Province, we found no prominent display of the USAID identity or logo or any other


                                                                                        1
evidence to visibly acknowledge USAID as the sponsor of the project work. In fact, even
some teachers who had received training under the project did not know that USAID was
funding the project. (See page 11.)

The audit made four recommendations that were deemed necessary to help the mission
properly oversee implementation and evaluation of the project. The recommendations
concern:

•	 Negotiation of a new memorandum of agreement with the Afghan Ministry of
   Education that would formalize the working relationship between the mission,
   Creative Associates, and the Ministry of Education. (See page 8.)

•	 Submission to USAID/Afghanistan by Creative Associates of pertinent information
   related to all project subcontract modifications for which the mission had not been
   notified. (See page 10.)

•	 Performance of a closeout audit of the terminated subcontract to determine whether
   termination costs are reasonable. (See page 10.)

•	 Compliance by Creative Associates and its subcontractors with USAID branding and
   marking requirements or a request for a waiver of the requirements. (See page 12.)

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that a management decision has been reached on
recommendations 1, 2, 3, and 4 (see page 13). The mission’s written comments on the
draft report are included in their entirety as appendix II to this report (see pages 17 to 19).




                                                                                             2
BACKGROUND

Afghanistan has one of the highest illiteracy rates in the world. More than 11 million
Afghans over the age of 15 cannot read or write. In rural areas, where three-fourths of
all Afghans live, 90 percent of the women and over 60 percent of the men are illiterate.
Under the Taliban, girls were not allowed to go to school, fewer than 900,000 boys were
enrolled, and many received religious education in lieu of academics. The implications of
this lack of education can be felt in all domains of life. Afghans have little access to
information about good health practices, and most of the country’s judges and civil
servants do not have more than a high school degree. Today more than 5.7 million
students attend school. However, the Afghan Government is striving to improve
education for its people, and the Ministry of Education is working with USAID and other
donors to implement a 5-year National Education Strategic Plan (2006–2010).

USAID’s educational strategy in Afghanistan was designed in 2002 to meet the urgent
need for textbooks, schools, new curriculums, and trained teachers. USAID funded an
accelerated learning program to provide a chance for students denied an education to
catch up and complete the sixth grade. The educational strategy was expanded in 2004
to develop the capacity of the Afghan Government to improve the quality of education
while increasing access to opportunities in basic education, higher education, and
informal training in literacy, productive skills, and youth leadership.

USAID/Afghanistan designed the Building Education Support Systems for Teachers
Project to be implemented in 11 Afghan provinces (shown in the map below).




              Project subcontractors operate in 11 Afghan provinces:
              •   AWEC—Afghan Women’s Education Center
              •   SC-USA—Save the Children Federation, Inc.
              •   ADA—Afghan Development Association
              •   DHSA—Development and Humanitarian Services for Afghanistan
              •   CoAR—Coordination of Afghanistan Relief
              •   CHA—Coordination of Humanitarian Assistance.
              (Map source: Creative Associates International, Inc.)



                                                                                       3
To implement the project, the mission awarded a $73 million contract to Creative
Associates International, Inc. The project works directly with the Ministry of Education to
improve the quality of education. The project’s two main goals are to raise the
educational quality of all teachers by (1) improving teaching through teacher training,
and (2) institutionalizing structures and systems in the Ministry of Education that support
high-quality teaching. The project emphasizes developing curriculums and support
programs for teachers that promise not only to improve learning outcomes for Afghan
children but also to provide the basis for evaluating teaching and learning.

The contract with Creative Associates had an effective date of January 27, 2006, and an
end date of January 26, 2011. Three substantive changes were made to the mission’s
contract with Creative Associates.

   1. 	 A modification issued on May 7, 2007, reduced the contract’s estimated ceiling
        price by $25 million and made the new ceiling price for the contract $48 million.
        The modification also deleted component III, which had been designed to ensure
        the annual printing and distribution of textbooks. This change left only
        components I and II remaining in the contract.

   2. 	A revision of the contract’s statement of work in February 2008 shifted the
       primary focus of the contract to component I to emphasize improved teacher
       training in the 11 provinces covered by the project.

   3. 	 Subsequent to audit fieldwork, on August 4, 2009, a modification increased the
        contract’s ceiling price to $94 million.

As of September 30, 2009, $56 million had been obligated and $48 million had been
spent for project activities.

Audit Objective
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2009 annual audit plan to answer the following question:

•	 Is USAID/Afghanistan’s Building Education Support Systems for Teachers (BESST)
   Project achieving its main goals?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         4
AUDIT FINDINGS

The USAID/Afghanistan Building Education Support Systems for Teachers Project,
which is being carried out in 11 Afghanistan provinces, is making progress in helping to
improve the quality of education but has not achieved its two main goals: improving
teaching through teacher training and institutionalizing Ministry of Education structures
and systems that support high-quality teaching.

Consistent with the audit findings, officials at the mission’s contractor, Creative
Associates International, Inc., stated that they have been meeting the project goals and
have achieved some, but not all, of the planned tasks and activities for the project. The
two main goals for the project were:

•	 Component I—Improving the quality of teaching, particularly the effectiveness of
   teachers already on the job. Creative Associates planned to train a group of
   teachers who in turn would train approximately 54,000 teachers in 11 provinces who
   were already working for the Ministry of Education.

•	 Component II—Institutionalizing structures and systems in the Ministry of Education
   that support high-quality teaching. Creative Associates planned to help recruit and
   select 444 candidates who would assist with capacity development at the Ministry of
   Education and to develop manuals on human resource and personnel policy.

The audit found that under component I much of the training had been completed. For
example, 50,600 of the target of 54,000 teachers in the 11 provinces had received in-
service training for teachers already working for the Ministry of Education. Although the
project has not attempted to measure the extent to which teaching has actually been
improved, teachers we spoke with expressed satisfaction with the training they had
received. And under component II, much of the technical assistance to the Ministry of
Education had been completed. Creative Associates had assisted in recruiting and
selecting most of the 444 candidates who were expected to help the Ministry of
Education develop its capacity to improve the quality of teaching.

In addition, the audit found that, as part of component I, district teacher training teams
had been established to help conduct training in all 11 provinces. This approach used a
cascading process of training existing teachers as instructors who in turn would train
other teachers. The project teamed with subcontractors to select and hire 181 team
leaders, 1,361 team members, and 8 provincial project monitoring officers, all by
December 2007. Moreover, as part of component II, the project developed (1) an action
plan for the Ministry of Education's 5-year strategic plan, (2) a human resources policy
manual, (3) a training curriculum for management skills, and (4) an action plan for the
integration of the Human Resources Department and the Reform Implementation and
Management Unit at the Ministry of Education.

As part of our audit of the project, we visited the Balkh Province in Afghanistan to learn
more about the teacher and school management training that had taken place there. In
Balkh Province, we were told that teacher training had taken place in centralized
clusters, taking into account how to serve as many people as possible within a given
area. We performed about a dozen interviews in Balkh Province, including meeting with


                                                                                        5
officials of the Afghan Women’s Education Center, a Creative Associates subcontractor
in the province, and with trainers, teachers, school officials, and Ministry of Education
district officials who had been trained or were otherwise familiar with the project. Similar
to the results found in a USAID-contracted midterm evaluation, the audit found that all
training participants—teachers and school officials alike—were very satisfied with the
project training.

However, notwithstanding these accomplishments, the audit found that, almost 4 years
into the 5-year project, some significant tasks and activities included in the project’s
contract and work plan had not been completed. For example, the project had not
completed the curriculum development and related in-service teacher training or the
accelerated program for teachers who did not meet Ministry of Education teaching
qualifications for their specific subject/grade level, as planned under component I. The
project also did not complete some activities planned under component II—for example,
technical assistance intended for the Ministry of Education’s Human Resources
Department, such as development of a curriculum and staff training on a human
resource database; creation of a training manual for the payroll database for budget
staff; and preparation of at least one workshop on pedagogical methods for faculty at
each provincial teacher training college. The contractor hoped to complete these efforts
by the contract’s end.

The audit identified several issues that the mission needs to address, however, to
improve the results of the program. For example, the audit determined that:

   •	 The memorandum of agreement between the mission, the contractor, and the
      Ministry of Education was outdated and needed to be revised.

   •	 High-value subcontract modifications had not been approved by the mission and
      needed to be reviewed for acceptability.

   •	 USAID branding and marking requirements were not being followed, and the
      contractor needed to comply with the requirements or request a waiver.

These issues are discussed in more detail in the following sections.




                                                                                          6
New Memorandum of
Agreement Is Needed
 Summary. The August 2007 memorandum of agreement between USAID/Afghanistan,
 Creative Associates International, Inc., and the Ministry of Education for the Building
 Education Support Systems for Teachers Project required that the agreement be jointly
 reviewed annually and revised as necessary. During the audit, we determined that the
 agreement had not been reviewed annually or revised when needed. A new or revised
 agreement could not be produced because the contracting officer’s technical
 representative did not have sufficient time to evaluate the needs of the project. As a
 result, the memorandum of agreement was outdated, and the partners had no
 consensus on how the program funds would be spent, what tasks and activities would be
 acceptable to the Ministry of Education, and no decisions on how to implement remaining
 project activities.

According to the August 2007 memorandum of agreement between USAID/Afghanistan,
Creative Associates International, Inc., and the Ministry of Education for the Building
Education Support Systems for Teachers Project, the memorandum of agreement was
supposed to be jointly reviewed annually. The joint review would give the parties to the
agreement a clear understanding of one another’s roles and responsibilities and promote a
consensus on changes that could be necessary for the project.

However, the audit found that the memorandum of agreement had not been reviewed
annually or revised when needed and that a new or revised agreement was needed
between the mission, Creative Associates, and the Ministry of Education. As explained
below, the memorandum of agreement is now outdated because of significant changes the
mission has planned for the remaining period of the project.

The mission was trying to prepare a statement of work for the continued funding of the
project but had not established a new, formalized memorandum of agreement with the
Ministry of Education. The mission was relying on verbal statements from various Ministry
of Education staff and had not sought to update the memorandum of agreement.
Moreover, a May 2009 draft memorandum from the mission’s project director to the acting
mission director sought to increase the contract ceiling price by $46 million and modify the
scope of work. The draft memorandum further proposed activities in the remaining period
of the current contract, such as accelerated learning courses, in-service training for
teachers that would focus on subject-specific pedagogy, activities for school managers to
support teachers in their schools, and delivery of radio-based long-distance education.
These activities are not reflected in the current memorandum of agreement. In addition, the
contracting officer’s technical representative stated that because of uncertainty over the
Ministry of Education’s expectations and needs, the current-year work plan had not been
finalized and thus not approved.

A new or revised memorandum of agreement could not be arranged because the technical
representative did not have sufficient time to evaluate the needs of the project. USAID
auditors were told by the current technical representative that, at best, she and the
alternate technical representative spend only about 20 percent (1 day per week) of their
time on the project and do not have enough time to fully address all related issues. The
technical representative stated that she needs at least 3 days a week for the project rather
than the 1 day she now has to spend. However, the technical representative said that


                                                                                          7
plans were underway to shift her responsibilities for the project to a Foreign Service
national, and she could then oversee several education programs. The project would
benefit from this plan to give project personnel more time to review the project’s needs.

Because the current memorandum of agreement with the Ministry of Education is outdated,
the mission has had minimal assurance of consensus on what tasks and activities will be
acceptable to the Ministry of Education and the appropriateness of instructions it provides
to Creative Associates under the next phase of the project. Therefore, this audit makes the
following recommendation:

   Recommendation 1. We recommend that USAID/Afghanistan negotiate a new
   memorandum of agreement with the Afghan Ministry of Education to formalize a
   working relationship between the mission, Creative Associates International, Inc.,
   and the Ministry of Education to be used for accomplishing tasks and activities
   for the remaining period of the Building Education Support Systems for Teachers
   Project.


High-Value Subcontract
Modifications Were Not
Approved by the Mission

  Summary.         The contract between the mission and Creative Associates
  International, Inc., and subsequent instructions from the mission contracting officer,
  require that Creative Associates obtain the contracting officer’s written approval
  with consent of the technical representative, prior to the award of subcontracts, and
  subsequent modifications. Creative Associates did not seek or obtain required
  approvals from the mission’s contracting officer for all of its project subcontract
  modifications. Many of these modifications resulted in substantial increases in
  subcontractor funding levels, and one modification terminated the project’s
  monitoring and evaluation subcontractor without mission approval. According to
  Creative Associates, they believed they did not need to obtain approval to modify
  the subcontracts, since they had received earlier approval to make the original
  subcontract awards. Since the mission was unaware of some of Creative
  Associates’ subcontract modifications, the mission had little if any assurance of the
  acceptability of the terms and costs associated with these modifications. Of
  particular note, in the case of the subcontract termination, the mission may even be
  liable for contract termination costs.

The contract between the mission and Creative Associates International, Inc. and
subsequent instructions from the contracting officer required the contracting officer’s,
written approval with consent of the technical representative, prior to the award of
subcontracts, and subsequent modifications.

Although the audit found that the issuance of subcontracts had originally been approved,
some of the project subcontract modifications issued by Creative Associates had not.
For example, the audit determined that the mission had been notified of, and had
approved, subcontracts with Save the Children Federation, Inc., the Afghan Women’s
Education Center, Coordination of Humanitarian Assistance, Afghan Development


                                                                                           8
Association, Coordination of Afghan Relief, Development and Humanitarian Services for
Afghanistan, and JBS International, Inc.—Aguirre Division. The estimated costs for
these seven subcontracts and modifications issued by Creative Associates to help
implement the project totaled $23.4 million. However, the mission’s contracting officer
had not been aware of and had not approved some subcontract modifications issued by
Creative Associates. These modifications pertained to such significant issues as the
terms of subcontractor performance, changes in the duration of subcontracts, and
significant increases in funding that the mission should have had a chance to review and
approve. For example, Creative Associates issued modifications to the following
subcontracts without the contracting officer’s approval:

Save the Children Federation, Inc. This subcontract was signed on July 11, 2006, for
$3.6 million, with an end date of September 30, 2010. Subsequent modifications
increased the ceiling amount to $5.9 million and changed the end date to May 31, 2009.

Afghan Women's Education Center. This subcontract was signed on June 1, 2006,
for $1.1 million, with an end date of December 26, 2010. Subsequent modifications
increased the ceiling amount to $3.6 million and changed the end date to May 31, 2009.

Coordination of Humanitarian Assistance. This subcontract was signed on June 1,
2006, for $2.3 million, with an end date of December 26, 2010. Subsequent
modifications increased the ceiling amount to $4.2 million and changed the end date to
May 31, 2009.

Afghan Development Association. This subcontract was signed on July 10, 2006, for
$1.8 million, with an end date of November 26, 2010. Subsequent modifications
increased the ceiling amount to $2.8 million and changed the end date to May 31, 2009.

Coordination of Afghan Relief. This subcontract was signed on June 1, 2006, for
$1.2 million, with an end date of December 26, 2010. Subsequent modifications
increased the ceiling amount to $2.7 million and changed the end date to May 31, 2009.

Development and Humanitarian Services for Afghanistan. This subcontract was
signed on June 1, 2006, for $1.7 million, with an end date of December 26, 2010.
Subsequent modifications increased the ceiling amount to $1.9 million and changed the
end date to May 31, 2009.

The audit also found that Creative Associates had entered into a $5 million monitoring
and evaluation subcontract with Aguirre on June 19, 2006. Later, on February 26, 2008,
because it had determined that the services of Aguirre were no longer needed, Creative
Associates terminated the subcontract with Aguirre and reduced the estimated cost of
the subcontract to $2.3 million to cover work performed. Although the Aguirre
subcontract had been named in pre-award documentation submitted to the mission and
thus had de facto approval, Creative Associates did not inform the mission that the
Aguirre subcontract was being terminated by mutual written agreement between
Creative Associates and Aguirre.

The failure of Creative Associates to notify the mission’s contracting officer of the
terminated Aguirre subcontract raises two issues. First, because the mission did not
know about modifications to the subcontract or the termination, it could not review the
costs being charged by Aguirre for work requirements and closing out the subcontract.


                                                                                      9
The mission thus had little, if any, assurance that the costs charged to the project were
reasonable, allocable, and allowable. The mission also may be liable for contract
termination costs associated with the termination. Second, the mission was not given
any information on how Creative Associates intended to complete those tasks previously
performed by Aguirre and thus could not determine to what extent the project could be
negatively affected by the termination.

According to Creative Associates, since they had received approval for the project’s
subcontracts early in the process, they did not think they were required to go back later
for approval to modify the subcontracts. However, in addition to the requirements of the
contract cited earlier, Creative Associates had been informed by the mission’s
contracting officer in an email dated February 13, 2006, that it was required to obtain
approval for any increase in the subcontract award amounts. Moreover, Creative
Associates stated that they were not aware that termination of the Aguirre subcontract,
through a modification, required notification to or approval by the mission’s contracting
officer.

Since the mission’s contracting officer was unaware of the subcontract modifications by
Creative Associates, the mission had little, if any, assurance that the terms, conditions,
and costs for the subcontract modifications were acceptable. Because Creative
Associates had failed to properly notify the mission of its subcontract modifications or
obtain the mission’s consent, the mission could have unknowingly paid for unnecessary
services or overpaid for services performed on its behalf. As a result, this audit makes
the following recommendations:

   Recommendation 2. We recommend that USAID/Afghanistan require Creative
   Associates International, Inc., to submit all pertinent information related to all
   Building Education Support Systems for Teachers Project subcontract
   modifications for which the mission has not been notified. After receipt of the
   pertinent information from Creative Associates International, Inc., the mission
   should determine and document the acceptability of the subcontract
   modifications.

   Recommendation 3.          We recommend that USAID/Afghanistan require a
   closeout audit of the subcontract between Creative Associates International, Inc.,
   and JBS International, Inc.—Aguirre Division related to the Building Education
   Support Systems for Teachers Project and take all corrective actions detailed in
   the closeout audit report.




                                                                                        10
USAID Branding and
Marking Requirements
Are Not Being Followed

  Summary. The contract between USAID/Afghanistan and Creative Associates
  International, Inc., contained provisions concerning branding and marking
  requirements with which Creative Associates was supposed to comply. However,
  Creative Associates and at least one of its subcontractors were not complying with
  USAID branding and marking requirements. Creative Associates believed that,
  because of the risks created by hostilities in Afghanistan, they should not be
  required to prominently display the USAID identity or logo indicating that USAID is
  funding the project on behalf of the American people. Some visitors to the offices
  of Creative Associates and its subcontractors, such as the stakeholders,
  beneficiaries, and the general public, would likely not be aware that the Building
  Education Support Systems for Teachers Project is supported by the American
  people. Notably, even some of the teachers who had received training under the
  project did not know that USAID was funding the project.

According to USAID’s framework legislation, the Foreign Assistance Act of 1961, Public
Law 87–195, section 641, all programs under the act must be identified appropriately
overseas as “American Aid.” In addition, the USAID Automated Directive System (ADS)
contains USAID’s policies and required procedures on branding and marking USAID-
funded programs, projects, activities, public communications, and commodities (ADS
320). The contract between USAID/Afghanistan and Creative Associates International,
Inc., contained provisions concerning branding and marking with which Creative
Associates was required to comply. “Branding” identifies the sponsor of the work
performed and refers to how a program or project is named and positioned. “Marking”
identifies the organizations supporting the work by applying graphic identities or logos to
program materials or project signage to visibly acknowledge contributors.

The audit found that Creative Associates and the Afghan Women’s Education Center
(one of Creative Associates’ subcontractors) were not complying with ADS 320.3.2.4,
“Marking Requirements for Specific Contract Deliverables”. Under paragraph (b) of this
provision, program, project, or activity sites financed by USAID contracts must
prominently display the USAID identity, unless a USAID-approved exception or waiver
applies. When we visited the main office of Creative Associates in Kabul, we could not
find any prominent display of the USAID identity or logo or any other notable evidence to
visibly acknowledge USAID as the sponsor of the project work being implemented by
Creative Associates. Moreover, when we visited the regional office of the Afghan
Women’s Education Center in Balkh Province, we found no prominent display of the
USAID identity or logo or any other notable evidence to visibly acknowledge USAID as
the sponsor of the project work being implemented by Creative Associates.

Creative Associates and the Afghan Women’s Education Center regional office in Balkh
Province were not complying with ADS 320, “Branding and Marking,” or related contract
requirements. They believed that they should not have to prominently display the
USAID identity or logo because of the hostilities in Afghanistan. The chief of party of
Creative Associates told USAID auditors that they did not have a waiver concerning
compliance with USAID marking requirements. In fact, in August 2007, Creative


                                                                                        11
Associates was informed by a mission program official that any presentations regarding
programs funded by the mission should have the USAID logo, and instructions were
provided on how to obtain the logo.

According to ADS 320.3.2.6, “Waivers to Contract Marking Requirements”, contractors
may request waivers of the marking requirement, in whole or in part, through the
contracting officer, and the technical representative then assists in processing a waiver
request to the mission director. Approved waivers flow down to subcontractors unless
otherwise specified. The USAID mission director has the authority to waive, in whole or
in part, USAID marking requirements. The mission director may exercise this authority
only after determining that the markings would pose compelling political, safety, or
security risks or that the markings have caused or will cause an adverse reaction in the
cooperating country. In exceptional circumstances, the mission director may approve a
blanket waiver by region or country. Only the contracting officer has the authority to
inform the contractor of a waiver decision and to direct the contractor to comply with it.

Creative Associates and its subcontractors, unless they receive an approved waiver
from the mission, should comply with the branding and marking requirements of USAID.
In the case of Creative Associates, visitors to their offices may not know that the project
is funded by USAID and the American people. Likewise, in the case of the
nongovernmental organization subcontractor Afghan Women’s Education Center,
visitors to their offices might not know that the project is being funded by USAID. In fact,
some of the teachers we met with in Balkh Province, where one of the Afghan Women's
Education Center regional offices is located, did not know that USAID was funding the
training which they had been provided. The teachers stated that they had thought the
project was funded by the Afghan Women’s Education Center. Thus, the American
people were not receiving full recognition for funding the project in Balkh Province.

Because Creative Associates and at least one of its nongovernmental organization
subcontractors are not complying with USAID branding and marking requirements, the
stakeholders, beneficiaries, and the general public who visit their offices would likely not
be aware that USAID/Afghanistan is funding the project. Therefore, this audit makes the
following recommendation:

   Recommendation 4. We recommend that USAID/Afghanistan require Creative
   Associates International, Inc. and its subcontractors to provide documented proof
   of compliance with requirements of USAID Automated Directive System 320,
   “Branding and Marking”, or submit a written request to the mission for a waiver
   from the requirements.




                                                                                         12
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that a management decision has been reached on
recommendations 1, 2, 3, and 4. The status of each of the four recommendations is
shown below.

For recommendation 1, the mission stated that a new memorandum of agreement will be
drafted and signed by all parties by August 30, 2010. The new memorandum of
agreement will include additional activities proposed for the remaining period of the
current contract, such as accelerated learning programs for teachers, distance
education, an education stabilization initiative grant program, and the project’s
contribution to the national exam for teachers. In addition, the memorandum of
agreement will be jointly reviewed annually to give both parties a clear understanding of
one another’s roles and responsibilities and promote consensus on any changes that
might be necessary for the project for which the agreement will be modified accordingly.

For recommendation 2, the mission stated that it has received all subcontract
modifications from Creative Associates International, Inc. and that each will be reviewed
by the contract officer for acceptability and approval by February 15, 2010. As noted in
the audit report, the contract officer’s review of the subcontract modifications should take
into account such significant issues as the terms of subcontractor performance, changes
in the duration of subcontracts, and significant increases in funding amounts.

For recommendation 3, the mission stated that it will require Creative Associates to
conduct a closeout audit of JBS International, Inc.—Aguirre Division. The closeout audit
requirement will be communicated to Creative Associates by January 31, 2010.
Furthermore, upon completion of the closeout audit the mission stated that it will ensure
that all corrective actions detailed in the closeout audit report are taken.

For recommendation 4, the mission stated that it will formally advise Creative Associates
of its responsibility to be compliant with the approved USAID branding and marking plan
and reissue the plan to Creative Associates and its subcontractors by January 31, 2010.
We expect that the mission will provide a statement, photographs, or other documents
indicating the compliance of the contractor and its subcontractors. In addition, the
mission stated that Creative Associates will be required to provide training to its staff and
subcontractors in the proper implementation of the approved USAID branding and
marketing plan by April 30, 2010.

We consider that a management decision has been reached on each of the four
recommendations. Determinations of final action will be made by the Audit Performance
and Compliance Division upon completion of the planned corrective actions.

The mission’s written comments on the draft report are included in their entirety as
appendix II to this report.




                                                                                          13
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of this audit was to determine
whether USAID/Afghanistan’s Building Education Support Systems for Teachers project
was achieving its main goals.

USAID/Afghanistan awarded a 5-year, $73 million contract to Creative Associates
International, Inc., to implement the Building Education Support Systems for Teachers
Project, with a start date of January 27, 2006, and an end date of January 26, 2011.
Later, the contract with Creative Associates was increased to $94 million when the
scope of work for the contract was revised. As of September 30, 2009, $56 million had
been obligated, and $48 million had been spent for project activities.

The audit fieldwork was conducted in Afghanistan from May 20 through June 10, 2009,
and covered the project activities implemented by Creative Associates from the
contract’s inception to June 2009. We conducted audit fieldwork at USAID/Afghanistan
and Creative Associates’ headquarters office In Kabul, Afghanistan. Additionally, we
made site visits to the Afghan Women’s Education Center, the Creative Associates
subcontractor in Balkh Province in Afghanistan. As part of the audit, we met with project
subcontractors, trainers, teachers, school officials, and local government officials in
Afghanistan to obtain their observations about the assistance provided.

Because of security restrictions, we had to modify the selection of project beneficiaries
interviewed in Balkh Province. Also, logistical problems that the mission program office
in Kabul could not overcome prevented us from pursuing our planned visit with project
beneficiaries in Jalalabad, Afghanistan. However, we believe that these restrictions,
attributable to security concerns and logistical problems, did not adversely affect the
conclusions in this report.

As part of the audit, we assessed USAID/Afghanistan’s significant internal controls in
place to monitor the project activities. The assessment covered controls related to whether
the mission had (1) conducted and documented site visits to evaluate and monitor
progress, (2) required and approved the contractor’s work plan and monitoring and
evaluation plan, (3) reviewed progress reports submitted by the contractor, and (4)
compared the contractor’s reported progress to planned progress and the mission’s own
evaluations of progress. The assessment also covered controls related to the contents of
the contracting officer’s technical representative’s files to help determine the adequacy
of project oversight. Additionally, we reviewed the mission’s annual self-assessment of
internal controls in accordance with the Federal Managers’ Financial Integrity Act of
1982.1 Finally, we reviewed relevant prior audit reports.

1
    Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, and 3512.


                                                                                        14
Methodology
At the time of the audit, Creative Associates did not have an approved project work plan.
The Creative Associates draft work plan for year 4, which had not been submitted to the
mission for approval was incomplete—it was in matrix format with only minimal narrative
description of tasks to be achieved. Therefore, to answer the audit objective, we modified
the audit approach and designed audit steps to test for project achievements on the
basis of the Creative Associates work plan for years 2 and 3 (August 2007 through
December 2008), which had been approved by the mission.

Specifically, to answer the audit objective, we interviewed officials and staff from
USAID/Afghanistan, Creative Associates International, Inc., the Ministry of Education,
Creative Associates subcontractors, and a USAID-contracted evaluation team hired by
the mission to perform an evaluation of the project. We also reviewed and analyzed
relevant documents at offices of the mission and the contractor. This documentation
included annual work plans, the contract and its modifications, site visit and other
monitoring reports, progress reports, and financial reports and records. Regarding the
monitoring and evaluation system at the contractor, we reviewed the data reporting
system to determine whether accurate results were being captured.

The contractor planned its activities to be performed under the contract on the basis of
tasks and expected results identified in components I and II of the contract with the
mission. We judgmentally tested significant tasks identified in component I, sections A
and B, and component II, sections A and B. We reviewed the supporting information for
tasks that Creative Associates claimed to have completed to verify whether the tasks
had been completed. The results of the tests could not be specifically projected to the
population as a whole. As part of the interview process with beneficiaries in Balkh
Province, we asked questions about their understanding of the project and whether they
believed the project was meeting its two main goals.




                                                                                       15
                                                                              APPENDIX II 




MANAGEMENT COMMENTS 



MEMORANDUM

TO:                   Bruce N. Boyer, Regional Inspector General/Manila

From:                 William Frej, Mission Director, USAID/Afghanistan /s/

DATE:                 January 18, 2010

SUBJECT:              Audit of USAID/Afghanistan’s Building Education Support
                      Systems for Teachers Project (Agreement No. 306-M-00-06-
                      00508-00) (Audit Report No. 5-306-10-XXX-P)

REFERENCE:            BBoyer/WFrej memo dated December 17, 2009

Thank you for providing the Mission the opportunity to review the subject draft audit
report. We would like to express our gratitude for the professionalism, flexibility,
resourcefulness, and hard work exhibited by the audit team while travelling to several
insecure areas throughout Afghanistan to conduct field work. We are providing
confirmation of the actions that have been taken or are planned to be taken to address
the recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan negotiate a new
memorandum of agreement with the Afghan Ministry of Education to formalize a
working relationship between the mission, Creative Associates International, Inc.,
and the Ministry of Education to be used for accomplishing tasks and activities for
the remaining period of the Building Education Support Systems for Teachers
Project.

The Mission agrees with this recommendation.

Actions To Be Taken:

A new memorandum of agreement will be drafted and signed by all parties by August
30, 2010. The new agreement will include additional activities proposed for the
remaining period of the current contract such as accelerated learning programs for
teachers, distance education, education stabilization initiative grant program, and
BESST’s contribution to the national exam for teachers. In addition, the memorandum of
agreement will be jointly reviewed annually in order to give both parties a clear


                                                                                       16
understanding of one another’s roles and responsibilities and promote consensus on any
changes that might be necessary for the project for which the agreement will be modified
accordingly.

Based on the above, the Mission deems that a management decision has been reached
on this audit recommendation and requests your concurrence.

Recommendation No 2: We recommend that USAID/Afghanistan require Creative
Associates International, Inc. to submit all pertinent information related to all
Building Education Support Systems for Teachers Project subcontract
modifications for which the mission has not been notified. After receipt of the
pertinent information from Creative Associates International, Inc., the mission
should determine and document the acceptability of the subcontract
modifications.

The Mission agrees with this recommendation.

Actions Taken:

Since contract inception, Creative Associates International, Inc. (CAII) sought initial
consent from the Contract Office for all subcontracts with the individual organizations.
After receiving approval from USAID for the subcontractor budget estimates, documents
on administrative actions between CAII and the sub-contractors such as funding
modifications were not submitted to USAID for approval.

CAII has now provided USAID with all subcontract modifications. Each subcontract
modification will be reviewed by the Contracting Officer for acceptability and approval by
Feb 15, 2010.

Based on the actions taken above, the Mission deems that a management decision has
been reached and corrective actions are being taken to address audit recommendation
No. 2, and requests your concurrence.

Recommendation No 3: We recommend that USAID/Afghanistan require a
closeout audit of the subcontract between Creative Associates International, Inc.,
and JBS International, Inc.-Aquirre Division related to the Building Education
Support Systems for Teachers Project and take all corrective actions detailed in
the closeout audit report.

The Mission agrees with this recommendation.

Actions To Be Taken:

The Mission will require CAII to conduct a close-out audit of JBS International. This
requirement will be communicated to CAII by January 31, 2010. Furthermore, upon
completion of the close-out audit the Mission will ensure all corrective actions detailed in
the report are taken.

Based on the above, the Mission deems that a management decision has been reached
on this audit recommendation and requests your concurrence.



                                                                                          17
Recommendation No 4: We recommend that USAID/Afghanistan require Creative
Associates International, Inc. and its subcontractors to provide documented proof
of compliance with USAID Automated Directive System Chapter 320, Branding and
Marking, requirements or submit a written request to the Mission for a waiver from
the requirements.

The Mission agrees in principle with the recommendation. The Mission plans to
implement corrective actions that meet the intent of the audit finding and
recommendation.


Actions To Be Taken:

The Mission will formally advise CAII of its responsibility to be compliant with the
approved branding and marking plan and re-issued plan to CAII and its sub-contractors
by 01/31/2010. In addition, CAII will be required to provide training to its staff and
subcontractors in the proper implementation of the approved branding and marketing
plan by April 30, 2010.

Based on the above, the Mission deems that a management decision has been reached
on this audit recommendation and requests your concurrence.




                                                                                     18
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel.: 202─712─1150 

            Fax: 202─216─3047 

            www.usaid.gov/oig
